SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8270
AMERICA  ASIA PACIFIC  EUROPE

CPHILLIPS@SIDLEY.COM

April 15, 2021
VIA ELECTRONIC FILING
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Epic Systems Corp. v. Tata Consultancy Services Ltd. (No. 20-1426)

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on
April 6, 2021 and placed on the docket on April 12, 2021. The response is currently
due on May 12, 2021. Under Rule 30.4 of the Rules of this Court, Respondent Tata
Consultancy Services Limited respectfully requests a 30-day extension of time, to
and including June 11, 2021, within which to file its response.
The undersigned has a variety of obligations before various courts that would
make it difficult to complete the response by the current deadline. These matters
include delivering oral argument on May 6, 2021 in Drummond Coal v. Norfolk
Southern, No. 20-1871 (4th Cir.), and preparing appellant’s principal brief due May
26, 2021 in Haggart v. United States, Nos. 21-1659 & 21-1684 (Fed. Cir.).
Additionally, my co-counsel, Constantine Trela, Jr., is scheduled to deliver oral
argument in the following matters in the coming weeks: Pope Resources LP v.
Certain Underwriters at Lloyd’s, No. 80032-9-1 (Wash. Ct. App.) (Apr. 21, 2021); FG
SRC LLC v. Microsoft Corp., No. 2020-1993 (Fed. Cir.) (May 4, 2021); and Omega
Patents, LLC v. CalAmp Corp., Nos. 2020-1793 & 20-1794 (Fed. Cir.) (May 6, 2021).

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

Honorable Scott S. Harris
April 15, 2021
Page 2
Accordingly, Respondent respectfully requests a 30-day extension of time.
Respectfully submitted,
/s/ Carter G. Phillips
Carter G. Phillips
Counsel for Respondent

cc:

Michael T. Brody (via email and first-class mail)

